NOS: 20-7749 and 20-7750
IN THE SUPREME COURT OF THE UNITED STATES

ERIC KAMAHELE,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
KEPA MAUMAU,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
Reply in Support of Petition for Writ of Certiorari

SCOTT KEITH WILSON
Federal Public Defender
BENJAMIN C. MCMURRAY
Counsel of Record
46 West Broadway, Suite 110
Salt Lake City, UT 84101
Tel. (801) 524-4010
Benji_McMurray@fd.org
Counsel for Petitioner

IN THE SUPREME COURT OF THE UNITED STATES

NO. 20-7749
ERIC KAMAHELE,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
NO. 20-7750
KEPA MAUMAU,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit
Reply in Support of Petition for Writ of Certiorari
Petitioners in this case are codefendants who were sentenced to multiple
counts of violating 18 U.S.C. § 924(c) based on VICAR and Hobbs Act robbery. The
government has tacitly conceded that the § 924(c) convictions based on VICAR
should be vacated in light of Borden v. United States, No. 19-5410 (June 10, 2021).
Petitioners agree that this Court should remand on their third issue presented in
light of Borden.
1

The government, however, chose not to respond to Petitioners’ request for
review of their § 924(c) convictions based on Hobbs Act robbery. The Court should
grant certiorari on these issues as well or, in the alternative, order the
government to respond.
As described in Petitioners’ request for a writ of certiorari, the Tenth
Circuit is one of several circuits that has adopted jury instructions that extend
Hobbs Act robbery to situations where the defendant threatens to harm intangible
property. (Cert. Pet. 9-11.) Because this can be accomplished without the use of
violent physical force, it does not categorically fall within the force clause of
§ 924(c). In light of the widespread use of these jury instructions, the Court should
grant Petitioners’ request for a writ of certiorari to decide whether Hobbs Act
robbery is categorically a crime of violence under § 924(c). (See Cert. Pet. 11
(citing cases).)
This question is particularly important because the Court has granted
certiorari to decide whether attempted Hobbs Act robbery is a crime of violence
under § 924(c)’s force clause. United States v. Taylor, No. 20-1459, cert. granted
July 2, 2021. Analytically, however, the issues presented here should be
addressed prior to the issue presented in Taylor. If Hobbs Act robbery itself is not
categorically a crime of violence, then it follows that attempted Hobbs Act robbery
is not a crime of violence either.
Even if this Court is ultimately unpersuaded to grant certiorari on the
broader question of whether Hobbs Act robbery is categorically a crime of
2

violence, it should grant certiorari to provide these Petitioners relief from their
unconstitutional § 924(c) convictions. Their § 924(c) convictions based on Hobbs
Act robbery were unconstitutional as applied because they were necessarily based
on the unconstitutional residual clause of § 924(c). Here, the trial court (relying on
Tenth Circuit pattern instructions) instructed the jury that Hobbs Act robbery
could be committed by threatening future harm to intangible property. With the
residual clause in force, this instruction was unobjectionable. However, this
instruction took Petitioners’ Hobbs Act robbery convictions beyond the reach of
§ 924(c)’s force clause. As applied here, Petitioners’ § 924(c) convictions in this
case were unconstitutionally based on § 924(c)’s residual clause.

3

Kepa Maumau and Eric Kamahele were unconstitutionally convicted and
sentenced under “stacked” § 924(c) convictions that carried a mandatory 25-year
minimum penalty. The Tenth Circuit ’s unwillingness to correct these errors that
were the result of its own model jury instructions necessitates this Court’s
intervention. For these reasons, Petitioners respectfully ask this Court to grant
the writ as to all of the questions they have presented or, in the alternative, to
order the Government to respond to Petitioners’ Issues 1 and 2.
Respectfully submitted,
/S/ Benjamin C. McMurray
Benjamin C. McMurray
Assistant Federal Public Defender
Counsel of Record for Petitioner
46 West 300 South, Suite 110
Salt Lake City, UT 84101
(801) 524-4010
September 21, 2021

4

